               The Pre-Filing Agreement Program for Large
                 Businesses Has Yielded Modest Results

                                 September 2005

                       Reference Number: 2005-30-151




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 22, 2005


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report – The Pre-Filing Agreement Program for
                                   Large Businesses Has Yielded Modest Results
                                   (Audit # 200430028)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Pre-Filing Agreement (PFA) Program. The overall objective of this review was to
      determine whether the Large and Mid-Size Business (LMSB) Division1 PFA process is
      being administered in accordance with IRS policies and procedures.
      In summary, unlike regular examinations where tax issues2 are often resolved long after
      the tax return is filed, the objective of the PFA program is to resolve a potential
      contentious tax issue before a tax return is filed. The PFA process, according to the
      LMSB Division, is reducing burden on large business and making more effective use of
      its resources. Because of these and other benefits, the LMSB Division is seeking to
      increase the use of PFAs by expanding the length and scope of a PFA. Issued in
      December 2004, the new revenue procedure (Rev. Proc. 2005-12) expanded and
      enhanced the original revenue procedure and will provide large business with the
      opportunity to resolve tax issues for a period of up to 5 years. While the changes are
      important for attracting large businesses to the program, it will be equally important that
      the LMSB Division strengthen its ability to resolve more tax issues before returns are
      filed while ensuring PFA closing agreements fully protect the Federal Government’s



      1
        The LMSB Division is one of the four Internal Revenue Service operating divisions serving corporations,
      sub-chapter S corporations, and partnerships with $10 million or more in assets.
      2
        Tax issues are potential areas of controversy because from the IRS perspective they could represent
      noncompliance.
                                                          2

interest. Additionally, user fees3 need to be evaluated to provide assurances that they
are recovering the costs of a PFA.
The LMSB Division has designed and implemented a system of controls (techniques
and procedures) that guide the PFA process through screening and accepting
applications, developing tax issues for resolution, and executing PFA closing
agreements. However, we identified two control areas that could be strengthened to
help reach agreement on more tax issues before returns are due and better protect the
Federal Government’s interest. To date, the PFA program has experienced only
modest success in meeting its primary objective of reaching agreement on tax issues
before returns are filed. Also, numerous PFA closing agreements have been executed
for tax issues that were accepted into the PFA program against the advice of Office of
Chief Counsel technical attorneys.4 We believe there are important reasons for
strengthening these areas.
Examination teams are responsible for reviewing PFA applications and documenting
their recommendations for the Industry Director5 to use in deciding whether or not to
accept the tax issue for a PFA. They are also responsible for developing and
implementing a work plan that develops the tax issues for resolution within the
compressed time period available before the tax return is due. We reviewed 91 PFA
applications and case files supporting 12 PFA closing agreements and found
examination teams’ recommendations were documented and forwarded to the Industry
Directors for consideration. However, preliminary work plans were not developed until
after the Industry Director accepted the PFA application into the program. Additionally,
the work plans that were developed did not contain key elements that are used to
effectively plan and monitor the process of developing and resolving tax issues as
described in the IRS manual. We found little or no documentation outlining the
resources needed, procedures to be used, and the milestones and dates that must be
met to resolve the tax issue within the overall time period available before the return
was filed.
The LMSB Division recently implemented a dispute resolution process for the initial
screening of PFA applications that is designed to settle differences between Office of
Chief Counsel attorneys and Industry Directors over whether a particular tax issue is
suitable for a PFA. This feature was added after concerns were raised that Industry
Directors were accepting applications into the PFA program contrary to the advice
received from Chief Counsel’s technical attorneys. While this feature is an
improvement, it may not be enough to fully protect the Federal Government’s interest.
We found instances, for example, where the examination team’s work surfaced


3
  User fees are defined as charges individuals and businesses are required to pay for special benefits received beyond
those received by the general public
4
  Chief Counsel’s technical attorneys are within the Office of Chief Counsel. They are considered to be technical
experts that have substantive tax law knowledge in specific areas of the Internal Revenue Code and are located in
Washington, D.C.
5
  Industry Directors are executive-level managers who oversee the deployment of resources and resolve operational
concerns within the LMSB Division’s five industry segments.
                                             3

additional facts that changed the nature of the tax issue originally accepted for a PFA.
Despite having substantive tax law knowledge and subject matter expertise, Chief
Counsel’s technical attorneys have relatively little required involvement in a PFA beyond
the initial screening process.
We made three recommendations to the Director, Pre-Filing and Technical Guidance,
LMSB Division, that may help reach agreement on more tax issues before returns are
due and better protect the Federal Government’s interest. First, PFA program
guidelines need to include a requirement that examination teams develop preliminary
work plans in support of recommendations for accepting or not accepting tax issues for
a PFA. Second, actions are needed to establish a process that monitors and evaluates
how well concerns raised by Chief Counsel’s technical attorneys over tax issues
submitted for a PFA are resolved. Third, user fees need to be evaluated to ensure they
are recovering the Federal Government’s cost of providing a PFA.
Management’s Response: The LMSB Division agreed that it needs to address the
recommendations we made for developing preliminary work plans and evaluating user
fees. The LMSB Division will revise the template used to provide information to the
Industry Director to include a section for a brief, high-level, preliminary plan that
includes milestones and resources needed. The LMSB Division will also work with the
IRS’ Enforcement Committee to determine the appropriate user fee to charge for PFAs.
The LMSB Division indicated in its response that, by implementing the new
Rev. Proc. 2005-12, it addressed our recommendation to establish a process that
monitors and evaluates how well concerns raised by Chief Counsel’s technical
attorneys over tax issues submitted for a PFA are resolved. The LMSB Division noted
that Rev. Proc. 2005-12 requires involvement of Chief Counsel’s technical attorneys in
the screening process to provide technical expertise and help resolve legal issues. It
further noted that participation by the Office of Chief Counsel’s technical attorney is not
required or necessary throughout the whole process, except for the five issues in
Rev. Proc. 2005-12 for which the Associate Chief Counsel (International) concurs on
the agreement. The LMSB Division also had some general comments on the draft of
this report. Management’s complete response to the draft report is included as
Appendix IV.
Office of Audit Comment: While Rev. Proc. 2005-12 expanded and enhanced previous
procedures, we do not believe it sufficiently addresses our recommendation to provide
assurance that tax issues remain suitable for a PFA beyond the screening process. As
we noted in the report, examination teams have surfaced additional facts that changed
the nature of the tax issues originally accepted for a PFA.
With respect to the LMSB Division’s general comments, we incorporated their
suggested technical changes where appropriate. In addition, the LMSB Division
commented that the PFA applications and cases reviewed were entirely governed by a
previous revenue procedure and that the procedural concerns identified by the Treasury
Inspector General for Tax Administration are likely attributable to the prior guidance.
We agree that the previous revenue procedure covered all of the PFA applications and
                                           4

cases we reviewed. However, the concerns we raised are common to both new and old
procedures. Additionally, our fieldwork on the review was conducted between
October 2004 and April 2005 while the new revenue procedure was issued in
December 2004. Therefore, few, if any, PFA applications and cases would have been
completed for us to review under the new procedure.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
                       The Pre-Filing Agreement Program for Large Businesses
                                      Has Yielded Modest Results




                                                  Table of Contents


Background ............................................................................................... Page 1
Expanded Length and Scope of Pre-Filing Agreements
Could Boost Interest in the Program ......................................................... Page 2
Steps Could Be Taken to Enhance the Planning Process
and Better Protect the Federal Government’s Interest .............................. Page 4
         Recommendations 1 and 2: .............................................................Page 7

Pre-Filing Agreement User Fees Need to Be Evaluated ........................... Page 8
         Recommendation 3: .........................................................................Page 9

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Management’s Response to the Draft Report .................... Page 14
             The Pre-Filing Agreement Program for Large Businesses
                            Has Yielded Modest Results

                              Unlike regular examinations, where tax issues1 are often
Background
                              resolved long after the tax return is filed, the objective of the
                              Pre-Filing Agreement (PFA) program is to resolve a
                              potential contentious tax issue before the tax return is filed.
                              The PFA process, according to the Large and Mid-Size
                              Business (LMSB) Division2 is reducing burden on large
                              business and making more effective use of its resources.
                              The PFA program was established in January 2001
                              following a pilot project3 that successfully validated the
                              objective for the program.
                              The LMSB Division has broad discretion in deciding which
                              tax issues will be accepted into the program. Generally, the
                              tax issues accepted into the program must be factual in
                              nature and related to the application of well-established tax
                              law. The LMSB Division also accepts issues that involve a
                              methodology for determining how an item should be
                              properly reported on a tax return. Among the tax issues
                              specifically excluded from the program are ones where
                              advice is sought before a transaction is completed (i.e.,
                              prospective tax issues) or a particular action is taken.
                              The primary tool used by the LMSB Division to determine
                              which issues to accept into the program is the review of the
                              PFA application. The review is conducted by the PFA
                              program manager; Chief Counsel’s technical attorneys;4
                              LMSB Division technical advisors, the LMSB Division
                              examination team, if one is on site; and, if an international
                              tax issue is involved, the Director, International, LMSB
                              Division. Once reviewed, the decision to accept or reject a




                              1
                                Tax issues are potential areas of controversy because from the Internal
                              Revenue Service (IRS) perspective they could represent noncompliance.
                              2
                                The LMSB Division is one of the four IRS operating divisions. It
                              serves corporations, sub-chapter S corporations, and partnerships with
                              $10 million or more in assets.
                              3
                                Pilot projects are designed to test the effectiveness and efficiency of an
                              approach or idea before full-scale implementation.
                              4
                                Chief Counsel’s technical attorneys are within the Office of Chief
                              Counsel. They are considered to be technical experts that have
                              substantive tax law knowledge in specific areas of the Internal Revenue
                              Code and are located in Washington, D.C.
                                                                                                  Page 1
                The Pre-Filing Agreement Program for Large Businesses
                               Has Yielded Modest Results

                                 tax issue is generally the responsibility of the LMSB
                                 Division Industry Director.5
                                 Once accepted, a team is formed, which includes the
                                 Examination team, representatives of the taxpayer, LMSB
                                 Division Counsel field attorneys,6 and other personnel
                                 appropriate to develop the facts surrounding the tax issue
                                 and reach agreement with the large business on how the tax
                                 issue will be resolved. Once agreement is reached, a PFA
                                 closing agreement is drafted by LMSB Division Counsel
                                 field attorneys with the assistance of the examination team
                                 and the representative of the taxpayer, and other interested
                                 parties, such as Technical Advisors, when appropriate. The
                                 PFA closing agreement is signed by a representative of the
                                 large business and the Industry Director or designee that
                                 contractually binds both parties.
                                 This review was performed at the LMSB Division
                                 Headquarters in Washington, D.C., and at Internal
                                 Revenue Service (IRS) offices in Chicago, Illinois;
                                 New York, New York; San Diego, California; and
                                 Tampa/St. Petersburg, Florida, metropolitan areas during the
                                 period October 2004 through April 2005. The audit was
                                 conducted in accordance with Government Auditing
                                 Standards. Detailed information on our audit objective,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Since its inception in January 2001, the PFA program has,
Expanded Length and Scope of
                                 on average, annually received 38 applications, accepted
Pre-Filing Agreements Could
                                 26 applications for a PFA, and executed 15 PFA closing
Boost Interest in the Program
                                 agreements. The program’s modest results are due in part to
                                 restrictions placed on the length and scope of a PFA that
                                 limited interest in the program.




                                 5
                                   Industry Directors are executive-level managers who oversee the
                                 deployment of resources and resolve operational concerns within the
                                 LMSB Division’s five industry segments.
                                 6
                                   LMSB Division Counsel is a component of the Office of Chief
                                 Counsel that works closely with the LMSB Division on strategy and
                                 program planning matters, such as identifying and prioritizing emerging
                                 issues and developing published guidance needs, as well as on
                                 operations matters, such as day-to-day legal advice and field litigation.
                                                                                                   Page 2
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                 Under the original revenue procedure7 that set forth the rules
                 for the program, a PFA was generally limited to 1 year.
                 However, many large businesses sought to resolve tax
                 issues covering multiple years. The revenue procedure also
                 limited the scope of international tax issues eligible for the
                 program, which further hampered the program’s popularity.
                 Figure 1 provides a summary of the program results from
                 January 2001 through December 2004 by showing the
                 number of applications received and accepted, as well as the
                 number of agreements reached.

                               Figure 1: PFA Program (2001 - 2004)
                              50                 44                  42
                                                                                    38
                              40                                          34
                                                      28
                     Number




                              30   26                                                    26 26
                                                                               18
                              20        14                 12
                              10             5

                              0
                                    2001           2002                2003             2004
                                                      Calendar Year
                                   Applications Received        Applications Accepted    PFAs


                 Source: Treasury Inspector General for Audit Analysis of IRS Data.

                 To encourage more large business participation in the
                 program, the IRS decided to increase the length and number
                 of issues suitable for a PFA. Issued in December 2004, the
                 new revenue procedure (Rev. Proc. 2005-12) expanded and
                 enhanced the original revenue procedure and will provide
                 large businesses with the opportunity to resolve tax issues
                 for a period of up to 5 years. Unlike the original revenue
                 procedure, the new one also provides that generally any
                 international tax issue requiring a determination of facts or
                 the application of well-established legal principles is “likely
                 suitable for a PFA.” While the changes are important for

                 7
                  A revenue procedure is an official statement of procedure that, among
                 other things, affects the rights or duties of taxpayers under the Internal
                 Revenue Code. Revenue Procedure 2001-22 set forth the original
                 process and procedures for the PFA program.
                                                                                               Page 3
                 The Pre-Filing Agreement Program for Large Businesses
                                Has Yielded Modest Results

                                  attracting large businesses to the program, it will be equally
                                  important that the LMSB Division strengthen its ability to
                                  resolve more tax issues before returns are filed while
                                  ensuring PFA closing agreements fully protect the Federal
                                  Government’s interest.
                                  The LMSB Division has designed and implemented a
                                  system of controls (techniques and procedures) that guide
                                  the PFA process through screening and accepting
                                  applications, developing tax issues for resolution, and
                                  executing PFA closing agreements. Our evaluation of
                                  91 PFA applications active in Calendar Years 2003
                                  and 2004 found the applications were screened for
                                  suitability and forwarded to the Industry Directors with
                                  recommendations for deciding whether or not to accept the
                                  application for a PFA.
                                  Our review of closed case files supporting 12 PFA closing
                                  agreements that involved tax issues totaling $2.2 billion
                                  found examination teams developed and documented
                                  evidence to support recommended adjustments of
                                  $76 million to the original PFA application tax issues. The
                                  recommended adjustments were discussed and agreed upon
                                  with representatives from the large business and accurately
                                  incorporated into PFA closing agreements approved by the
                                  Industry Director or their designee.
                                  Despite the emphasis on resolving tax issues expeditiously,
Steps Could Be Taken to
                                  we identified two control areas that could be strengthened to
Enhance the Planning Process
                                  help reach agreement on more tax issues before returns are
and Better Protect the Federal
                                  due and better ensure the Federal Government’s interest is
Government’s Interest
                                  protected. As mentioned earlier, the PFA program has
                                  experienced only modest success in meeting its primary
                                  objective of reaching agreement on tax issues before returns
                                  are filed. Also, numerous PFA closing agreements have
                                  been executed for tax issues that were accepted into the PFA
                                  program against the advice of Chief Counsel’s technical
                                  attorneys. We believe there are important reasons for
                                  strengthening these areas.




                                                                                          Page 4
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                 The planning process for developing tax issues for
                 resolution could be improved
                 For each PFA application submitted, examination teams are
                 required to review the tax issue outlined in the application
                 and document their recommendation for the Industry
                 Director to use in deciding whether or not to accept the tax
                 issue for a PFA. They are also responsible for developing
                 and implementing a work plan that develops the tax issue
                 for resolution within the compressed time period available
                 before the tax return is due.
                 The PFA applications files we reviewed showed
                 examination teams documented and forwarded
                 recommendations to the Industry Director to consider
                 whether or not to accept the tax issue for a PFA. However,
                 guidelines do not specifically require examination teams to
                 develop a preliminary work plan for resolving a particular
                 tax issue until after the Industry Director decides to accept
                 the tax issue for a PFA. Consequently, the decision process
                 is not as strong as it could be because timeline projections,
                 resource requirements, and other relevant information is not
                 developed showing whether a particular tax issue will in fact
                 be resolved before the tax return is due.
                 Additionally, we found when work plans were developed
                 they did not contain key elements that are used to
                 effectively plan and monitor the process of developing and
                 resolving tax issues as described in the Internal Revenue
                 Manual (IRM).8 We found little or no documentation, for
                 example, outlining the resources needed, specific
                 procedures to be used, and the milestones and dates that
                 must be met to resolve the tax issue within the overall time
                 period available before the return was filed.
                 As a result of this control weakness, we found only 35 out
                 of the 102 PFA applications accepted into the program were
                 completed before the filing deadline. The results of the
                 remaining 67 PFA applications consisted of 25 PFAs
                 completed after the return was filed, 23 withdrawals from
                 the program, and 19 open PFA examinations of which 16
                 have already passed the filing deadline.

                 8
                  The IRM serves as the official compilation of procedures, instructions,
                 and guidelines that govern operations in the IRS.
                                                                                  Page 5
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                 Office of Chief Counsel attorney involvement
                 throughout the PFA process is a key element for
                 protecting the Federal Government’s interest
                 The LMSB Division recently implemented a dispute
                 resolution process for the initial screening of PFA
                 applications that is designed to settle differences between
                 Chief Counsel’s technical attorneys and Industry Directors
                 over whether a particular tax issue is suitable for a PFA.
                 This feature was added after concerns were raised that
                 Industry Directors were accepting applications into the PFA
                 program contrary to the advice received from Chief
                 Counsel’s technical attorneys. While this feature is an
                 improvement, it may not be enough to fully protect the
                 Federal Government’s interest.
                 We found instances, for example, where the examination
                 team’s work surfaced additional facts that changed the
                 nature of the tax issue originally accepted for a PFA.
                 Despite having substantive tax law knowledge and subject
                 matter expertise, Chief Counsel’s technical attorneys have
                 relatively little required involvement in a PFA beyond the
                 initial screening process. There is no requirement, for
                 example, that Chief Counsel’s technical attorneys ensure tax
                 issues remain suitable for a PFA when examination teams
                 are developing and resolving tax issues. While LMSB
                 Divisional Counsel’s attorneys are assigned to the PFA team
                 to provide legal advice and assistance during issue
                 development, they are usually not the subject matter experts
                 on the tax issue in question. Additionally, LMSB Division
                 Industry Directors do not need the concurrence of Office of
                 Chief Counsel attorneys before entering into a PFA closing
                 agreement except in the case of certain international tax
                 issues.9

                 Recommendations

                 To help reach agreement on more tax issues before returns
                 are due and better protect the Federal Government’s interest,


                 9
                  Rev. Proc. 2005-12 Section 3.06 Eligible international issues requiring
                 Associate Chief Counsel (International) concurrence in execution.
                 Page 313.
                                                                                 Page 6
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                 the Director, Pre-Filing and Technical Guidance, LMSB
                 Division, should:
                 1.     Revise PFA program guidelines to require that
                        examination teams provide Industry Directors with
                        preliminary work plans supporting their
                        recommendations to accept or not accept tax issues
                        for a PFA. We do not envision that developing the
                        work plan will involve an extensive amount of detail
                        or time. However, it should contain estimates of the
                        resources needed, the general audit procedures to be
                        used, and milestones to be met if a particular tax
                        issue is to be resolved before the return is filed.
                 Management’s Response: The LMSB Division will revise
                 the template used to provide information to the Industry
                 Director to include a section for a brief, high-level,
                 preliminary plan that includes milestones and resources
                 needed.
                 2.     Initiate actions to establish a process that monitors
                        and evaluates how well concerns raised by Chief
                        Counsel’s technical attorneys over tax issues
                        submitted for a PFA are resolved. The process
                        should be designed to provide assurance that tax
                        issues remain suitable for a PFA and that advice
                        from Counsel’s technical attorneys is fully
                        considered before closing agreements are executed.
                 Management’s Response: By implementing the new Rev.
                 Proc. 2005-12, the LMSB Division indicated it addressed
                 our recommendation to establish a process that monitors and
                 evaluates how well concerns raised by Chief Counsel’s
                 technical attorneys over tax issues submitted for a PFA
                 are resolved. The LMSB Division noted that
                 Rev. Proc. 2005-12 requires involvement of Chief
                 Counsel’s technical attorneys in the screening process to
                 provide technical expertise and help resolve legal issues. It
                 further noted that participation by the Office of Chief
                 Counsel’s technical attorney is not required or necessary
                 throughout the whole process, except for the five issues in
                 Rev. Proc. 2005-12 for which the Associate Chief Counsel
                 (International) concurs on the agreement.


                                                                        Page 7
                The Pre-Filing Agreement Program for Large Businesses
                               Has Yielded Modest Results

                                 Office of Audit Comment: While Rev. Proc. 2005-12
                                 expanded and enhanced previous procedures, we do not
                                 believe it sufficiently addresses our recommendation to
                                 provide assurance that tax issues remain suitable for a PFA
                                 beyond the screening process. As we noted in the report,
                                 examination teams have surfaced additional facts that
                                 changed the nature of the tax issues originally accepted for a
                                 PFA.
                                 User fees are defined by the Office of Management and
Pre-Filing Agreement User Fees
                                 Budget (OMB) Circular A-25, User Charges, as charges
Need to Be Evaluated
                                 individuals and businesses are required to pay for special
                                 benefits received beyond those received by the general
                                 public.10 The fees are based on the principle that those who
                                 receive special benefit from a Federal Government program
                                 or activity should bear the cost of receiving such benefit.
                                 In accordance with OMB’s directive, the IRS established a
                                 three tier user fee structure for the LMSB Division PFA
                                 program. The structure is based on the assets of a business
                                 in the following amounts:
                                      •   The fee for a business having assets of $250 million
                                          or more is $10,000.
                                      •   The fee for a business having assets of at least
                                          $50 million, but less than $250 million is $5,000.
                                      •   The fee for a business having assets of at least
                                          $10 million, but less than $50 million is $1,000.
                                 Since the program’s inception in January 2001 through
                                 December 2004, the LMSB Division reported it collected
                                 and deposited into the United States Treasury’s general
                                 fund $928,000 in user fees related to work on 102 PFAs.
                                 We estimate during this time period, the LMSB Division
                                 incurred, at a minimum, salary and benefit costs of
                                 $2.9 million or an average of $35,678 for issue development
                                 of each PFA.



                                 10
                                   OMB’s mission is to assist the President in the development and
                                 implementation of budget, program, management, and regulatory
                                 policies. Its Circulars are used to communicate instruction and
                                 information to Federal agencies.
                                                                                                Page 8
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                 The $2.03 million difference between the salary and benefit
                 costs incurred and what was recovered in user fees could be
                 higher. Our estimate does not include other cost factors,
                 such as management and supervisory costs, because the IRS
                 had not determined the direct or indirect costs of providing a
                 PFA due to an oversight. For us to evaluate the additional
                 costs and appropriateness of the fee structure would have
                 required more time and resources than were available.

                 Recommendation

                 3. To provide assurances that user fees are charged in
                    accordance with guidelines, regarding recovering
                    program costs, we are recommending the Director,
                    Pre-filing and Technical Guidance, LMSB Division,
                    take the necessary steps to comply with OMB
                    Circular A-25.
                 Management’s Response: The LMSB Division will work
                 with the IRS’ Enforcement Committee that is currently
                 working on a Service-wide initiative to evaluate user fees to
                 determine compliance with Circular A-25 to determine the
                 appropriate user fee to charge for PFAs.
                 Office of Audit Comment: The LMSB Division had some
                 general comments on the draft of this report. With respect
                 to these comments, we incorporated their suggested
                 technical changes where appropriate. In addition, the
                 LMSB Division commented that the PFA applications and
                 cases reviewed were entirely governed by a previous
                 revenue procedure and the procedural concerns we
                 identified are likely attributable to the prior guidance. We
                 agree the previous revenue procedure covered all of the PFA
                 applications and cases we reviewed. However, the concerns
                 we raised are common to both new and old procedures.
                 Additionally, our fieldwork on the review was conducted
                 between October 2004 and April 2005 while the new
                 revenue procedure was issued in December 2004.
                 Therefore, few, if any, PFA applications and cases would
                 have been completed for us to review under the new
                 procedure.



                                                                        Page 9
                     The Pre-Filing Agreement Program for Large Businesses
                                    Has Yielded Modest Results

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Large and Mid-Size Business
(LMSB) Division’s Pre-Filing Agreement (PFA) process is being administered in accordance
with Internal Revenue Service (IRS) policies and procedures. Work on this review was
performed in the IRS Office of Chief Counsel and LMSB Division Headquarters1 in
Washington, D.C., and in LMSB Division offices in the Chicago, Illinois; New York, New York;
San Diego, California; and Tampa/St. Petersburg, Florida, metropolitan areas. We chose these
metropolitan areas primarily to achieve coverage in geographically dispersed offices.
During the review, we relied on the IRS’ internal management reports and databases. We did not
establish the reliability of these data because extensive data validation tests were outside the
scope of this audit and would have required a significant amount of time. Additionally, we used
judgmental sampling techniques unless otherwise noted to minimize time and travel costs. To
accomplish the objective, we:
     I. Reviewed extensive source material to gain an understanding of the PFA program,
        processes, and user fees. These sources included the IRS Internal Revenue Manual,
        policy statements, training materials, revenue procedures, and the Office of Management
        and Budget Circular A-25, User Charges.2
    II. Analyzed all 91 PFA applications that were opened in Calendar Years (CY) 2003 and/or
        2004 (through September 30, 2004) along with a judgmental sample of case files
        supporting 12 of 28 PFA closing agreements completed in Fiscal Year 2004 to assess if
        IRS policies and procedures were followed in screening and accepting PFA applications
        into the program, planning and developing tax issues3 for resolution, and executing PFA
        closing agreements.
    III. Compared the IRS salary and benefit costs associated with 83 PFA application
         examinations closed between CYs 2001 and 2004 to the PFA user fee structure to assess
         the likelihood that user fees were covering the costs of the program.




1
  The IRS Office of Chief Counsel is expected to provide the correct legal interpretation of the tax law, represent the
IRS in litigation, and provide legal support the agency needs to carry out its mission. As one of the four IRS
operating divisions, the LMSB Division serves corporations, sub-chapter S corporations, and partnerships with
assets greater than $10 million.
2
  The Office of Management and Budget’s mission is to assist the President in the development and implementation
of budget, program, management, and regulatory policies. Its Circulars are used to communicate instruction and
information to Federal agencies.
3
  Tax issues are potential areas of controversy because from the IRS perspective they could represent
noncompliance.
                                                                                                              Page 10
              The Pre-Filing Agreement Program for Large Businesses
                             Has Yielded Modest Results

IV. Interviewed numerous IRS officials who were involved with or affected by the PFA
    process to obtain their opinions about how well the process was working and learn about
    the status of any ongoing changes to improve the program.




                                                                                    Page 11
                The Pre-Filing Agreement Program for Large Businesses
                               Has Yielded Modest Results

                                                                                Appendix II


                           Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
Earl Charles Burney, Lead Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                       Page 12
               The Pre-Filing Agreement Program for Large Businesses
                              Has Yielded Modest Results

                                                                       Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
Deputy Chief Counsel (Operations) CC
Deputy Chief Counsel (Technical) CC
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Pre-Filing and Technical Guidance SE:LM:PFTG
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Chief Counsel CC




                                                                            Page 13
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results

                                                        Appendix IV


    Management’s Response to the Draft Report




                                                             Page 14
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results




                                                        Page 15
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results




                                                        Page 16
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results




                                                        Page 17
The Pre-Filing Agreement Program for Large Businesses
               Has Yielded Modest Results




                                                        Page 18
